<html>
<title> - FEDERAL AIR MARSHAL SERVICE: OVERSIGHT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 FEDERAL AIR MARSHAL SERVICE: OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2015

                               __________

                           Serial No. 114-61

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                               ___________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
99-658 PDF                     WASHINGTON : 2016                          
             
________________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a>  
            
             
             COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
 James Robertson, Transportation and Public Assets Subcommittee Staff 
                                Director
                Michael Kiko, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 17, 2015...............................     1

                               WITNESSES

Mr. Roderick Allison, Director, Office of Law Enforcement/Federal 
  Air Marshal Service, Transportation Security Administration, 
  U.S. Department of Homeland Security
    Oral Statement...............................................     5
    Written Statement............................................     8
Ms. Heather Book, Assistant Administrator, Office of Professional 
  Responsibility, Transportation Security Administration, U.S. 
  Department of Homeland Security
    Oral Statement...............................................    11

 
                 FEDERAL AIR MARSHAL SERVICE: OVERSIGHT

                              ----------                              


                      Thursday, September 17, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2:00 p.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Walberg, 
Walker, Blum, Hice, Russell, Carter, Grothman, Palmer, 
Cummings, Maloney, Duckworth, Kelly, Lawrence, Watson Coleman, 
DeSaulnier, and Welch.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    This morning, we had been conducting a joint hearing with 
the Natural Resources Committee, but, in consultation with the 
ranking member, Mr. Cummings, and working with the Democrats, 
we are going to go ahead and start this hearing at this time.
    Today, we are here to talk about the Federal Air Marshals--
a very difficult job, very needed in this country, 
unfortunately.
    The Federal Air Marshal Service, often referred to as FAMS, 
is comprised of thousands of men and women who have taken an 
oath to prevent and disrupt acts of terrorism on our Nation's 
airplanes. Many of these men and women operate at 30,000 feet 
in the air and act as the last line of defense against 
potential terror attacks.
    These air marshals operate in anonymity and mostly under 
their own supervision, and most of them do a good and decent 
job, serving a patriotic service and doing so with great 
integrity. But when any member of this highly trained workforce 
veers away from the core mission, they put the Nation's air 
security at risk.
    So why are we here today? Unfortunately, there have been 
some very high-profile scandals. Former FAMS Director, Federal 
Air Marshal Service Director Robert Bray retired in 2014 after 
being investigated for his entanglement in an alleged operation 
to acquire guns for officials' personal use. In 2012, Federal 
Air Marshals assigned to protect commercial flights across the 
United States were pulled from their assigned flights so they 
could meet on sexual rendezvous.
    Most recently, there is an allegation of air marshals 
disguising themselves as pornography producers, hiring 
prostitutes and using their government-issued phones and other 
assets to film sexual encounters. Unfortunately, these people, 
based in Chicago, have been evidently engaged in these 
activities.
    These are all ongoing investigations. There is also 
reportedly major alcohol abuse within the Federal Air Marshal 
Service.
    But this story, this hearing is really not only intended to 
address those problems, but it has at least been our purview in 
the Oversight and Government Reform Committee, at least on our 
side of the aisle, that Director Allison, who is here today, 
and Ms. Book have taken some pretty strong and decisive action.
    Now, through the course of the first 8 months that I have 
been chairman of this committee, we have heard a series of 
different agencies that have come before us and complained that 
they couldn't take decisive action. Think of the DEA, the 
Secret Service, the EPA. We have had some very, very salacious 
misconduct from some of their employees, and yet they weren't 
fired, they weren't put on administrative leave, they didn't 
get their security clearances revoked. We had a situation, like 
I said, with the Secret Service, within the same department and 
agency, Homeland Security. Why weren't those people's security 
clearances revoked?
    But what I have found in the interactions, with great 
concern, hearing about how maybe flight schedules had been 
manipulated and sexual misconduct going on and inappropriate 
behavior--really thought that what we were going to find is yet 
another agency that wasn't dealing with that in an appropriate 
way.
    Now, there is more to learn; we are not giving them a free 
pass. I am not saying it is the absolute model for where we 
should be going, but I have been very impressed in the openness 
and transparency within the Federal Air Marshal system, their 
interaction with our committee, and what they did in a very 
decisive and swift manner.
    So, every hearing we do, we are not calling for the 
resignation of everybody--a lot of them, but, in some cases, we 
find something that is actually working well. Because there are 
misdeeds going on, there are things that are going awry, and we 
want to learn what they are doing in order to rectify that.
    So I have the deepest respect for the loyal men and women 
who work under Director Allison's leadership. They bear a 
tremendous responsibility.
    There are some things in this hearing that I am sure 
members of the public and members of this committee would be 
interested in hearing. Some of that is classified. I will 
interrupt and I will not tolerate anybody who is trying to get 
specific details about the number of air marshals, which 
flights are they on, which flights are they not on, and how 
they make such selections. That would be reserved for a 
classified setting, not appropriate in an open hearing. We do 
not need to tell the terrorists who they are, what they are 
doing, how they do it.
    Suffice it to say, I have reviewed some materials that 
would lead me to believe, A, this service is needed. There is a 
threat, and it gives me comfort to know that they are on top of 
it.
    Now, I worry about they don't know and who might be on an 
airplane or getting through security, and there are a host of 
other things that we should--and Mr. Mica has done great work 
on this, the security badges and getting through and what the 
whole TSA is doing and not doing. A totally different subject.
    But let's talk about the good, the bad, and the ugly of 
what is happening here with the Federal Air Marshals. And let's 
also give some credit where credit is due when we do rout out 
something that is wrong and deal with that in a swift manner.
    So, with that, I will yield my time and now recognize the 
ranking member, the gentleman from Maryland, Mr. Cummings, for 
his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I do 
thank you for holding this hearing on allegations of misconduct 
by employees of the Federal Air Marshal Service.
    And let me say this from the outset, Mr. Chairman. I agree 
with you with regard to Administrator Allison. It is so often 
that people in his position seem to skirt around matters when 
there is wrongdoing in their department. But, as you have said 
to me both privately and now publicly, he has taken on his 
responsibilities very diligently and carefully and has done 
everything in his power to address the issues at hand. And we 
do appreciate that.
    Our committee has been looking into two separate cases. In 
February, press reports allege that a TSA employee used her 
position to gain access to personnel files and flight schedules 
to identify air marshals she wanted to date. According to these 
press reports, flight schedules were changed to facilitate, 
``sexual trysts.'' On March 2, Chairman Chaffetz and I, along 
with Representatives Mica, Duckworth, DeSantis, and Lynch, 
wrote to Secretary Johnson at the Department of Homeland 
Security with regard to this incident.
    A second incident was reported publicly just yesterday. 
According to an article by the Associated Press, ``Two Federal 
Air Marshals have been suspended amidallegations they hired 
prostitutes overseas and recorded a sexual encounter with a 
government-issued device.'' Obviously, if these allegations are 
accurate, they are completely inappropriate for anyone, let 
alone air marshals charged with securing our skies. These 
employees must be held accountable, and I know they will be.
    From our perspective here in Congress, we want to ensure 
the integrity of the ongoing investigations and disciplinary 
actions in these cases, so we cannot discuss some of this 
information publicly. The last thing we want to do is 
compromise these ongoing investigations.
    Director Allison, we understand that you and Ms. Book may 
not be able to testify about certain details of these cases at 
today's hearing. We fully understand that. And, as the chairman 
said, I know that he will diligently guard against questions 
that might go into those issues.
    Despite these limitations, however, I want to thank you 
very much for the detailed briefing you gave to me and to the 
chairman last night about these incidents. Based on the limited 
information the committee has obtained to date, it appears that 
managers at your agency have been acting appropriately, using 
existing legal authorities to investigate and take action on 
these cases.
    The chairman has also made clear that he acknowledges the 
positive steps you have taken to date. And I applaud you for 
what you said to us just yesterday--that is, that you want to 
be proactive, that you want to create an atmosphere where these 
things don't happen so you don't have to come behind and clean 
up a mess. Those aren't your words; those are my words.
    Our broad interest is in ensuring that employees who are 
alleged to have engaged in misconduct are investigated promptly 
and fairly. We want bad employees to be routed out as quickly 
as possible because they give a bad name to the vast majority 
of Federal workers who devote their entire careers and lives to 
this Nation.
    And one of the other things that you told us is that you 
want to make sure that your agency has the very best and lives 
up to the highest of standards. And we appreciate that.
    We also want to protect the rights of employees accused of 
misconduct to ensure that they have due process to defend 
themselves against accusations that are false. Director Allison 
has already taken several steps to improve this process, and I 
believe the Oversight Committee can also help.
    For example, my staff members have been working very 
closely behind the scenes to help the Environmental Protection 
Agency and its inspector general develop new protocols to share 
information about employee misconduct matters. As a result of 
this work, both the EPA and IG have now advised the committee 
that they have implemented new processes to take more timely 
and fair disciplinary actions. They have begun holding biweekly 
meetings to share information about investigations, they are 
now communicating more frequently about administrative actions, 
and they are now sharing with agency managers reports of 
investigation in specific cases.
    And so, Mr. Chairman, as I close, I have here a joint 
letter that was sent to the committee from both the EPA and the 
IG's office detailing some of these improvements, and I ask 
unanimous consent that it be entered into the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. I believe this letter shows what we can do if 
we work hard with the agencies and the investigators to improve 
their procedures. This type of work does not always get the big 
headlines, but it makes a real difference. I look forward to 
hearing from Director Allison and Ms. Book about whether this 
procedure or something similar would help TSA, as well.
    And, with that, Mr. Chairman, I thank you, and I yield 
back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Chairman Chaffetz. I will now recognize the first and only 
panel today.
    We are pleased to welcome Mr. Roderick Allison. He is the 
Director of Law Enforcement for the Federal Air Marshal Service 
at the Transportation Security Administration at the Department 
of Homeland Security.
    We also want to thank Mr. Allison for his 13 years of 
service in the United States Army, his work in the Seventh 
Special Forces Group at Fort Bragg, North Carolina, among one 
of the highlights.
    We thank you, sir, for your service to our country and 
appreciate you being here with us today.
    We also have Ms. Heather Book, Assistant Administrator of 
the Office of Professional Responsibility at the Transportation 
Security Administration at the Department of Homeland Security.
    We welcome you both.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify, so if you will please rise and raise your 
right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    And let the record reflect that the witnesses both answered 
in the affirmative.
    We will give you great latitude on the time of your opening 
statement. And it would be remiss if your opening statement did 
not include, although maybe impromptu, some details of the two 
incidents, in particular, the individuals out of Chicago as 
well as the other incident where evidently schedules were 
manipulated and whatnot. We are inevitably going to ask about 
those, but we would appreciate it if you would proactively take 
some additional time and address those as well.
    With that, Director Allison, you are now recognized.

                       WITNESS STATEMENTS

                 STATEMENT OF RODERICK ALLISON

    Mr. Allison. Good afternoon, Chairman Chaffetz, Ranking 
Member Cummings, and members of the committee. I appreciate the 
opportunity to appear before you today to testify about the 
Federal Air Marshal Service.
    Our mission at FAMS is to detect, deter, and defeat 
criminal or terrorist activities against our transportation 
systems. We perform our core mission by deploying Federal Air 
Marshals on United States-flagged aircraft throughout the 
world, 365 days a year, utilizing a concept of operations that 
aligns with TSA's risk-based security strategy.
    Federal Air Marshals are law enforcement officers who 
receive specialized training to prepare them for the challenges 
associated with a very difficult working environment. Our 
officers operate at 30,000 feet, in restricted space, and have 
no backup to call upon.
    The Service is unique in its ability to remain flexible and 
to rapidly deploy hundreds of law enforcement officers in 
response to specific evolving threats within the transportation 
domain around the world.
    I can assure you that the vast majority of Federal Air 
Marshals are quiet counterterrorism professionals working 
diligently every day on thousands of flights a year to protect 
the traveling public and ensure our transportation systems are 
safe.
    There have been recent media reports on this conduct by 
FAMS. I can assure you that Administrator Neffenger finds 
misconduct at any level completely unacceptable. I 
wholeheartedly share his philosophy and have made it crystal-
clear to every employee: There is no tolerance for misconduct.
    All personnel are very well aware of our high standards and 
expectations of professionalism. And, as Federal law 
enforcement professionals, they are held to a higher standard, 
both on duty and off duty. I share the committee's expectation 
that we, as government employees, must demonstrate the highest 
level of integrity and conform to a rigorous code of conduct.
    As you know, I cannot comment on pending investigations. 
However, I can tell you that all allegations of misconduct are 
immediately referred to TSA's Office of Inspection or the DHS 
Office of Inspector General for a thorough, impartial, and 
independent investigation.
    The results of these investigations are reported to TSA's 
Office of Professional Responsibility. Investigative findings 
that are substantiated by these independent investigations may 
result in severe consequences, up to and including removal from 
Federal service. And please note that the discipline decisions 
are independently administered, as well, by Assistant 
Administrator Heather Book's staff at the Office of 
Professional Responsibility, who is here today.
    Since becoming the FAMS Director in June of 2014, I have 
made strong value-based leadership, workforce engagement, 
enhancing communication, and promoting the highest level of 
professionalism and integrity in the Air Marshal Service my top 
priorities. Over the past 16 months, I have personally visited 
all 22 Federal Air Marshal field offices, and, together with 
the Deputy Director, we have held 50 townhall meetings 
throughout the FAMS organization.
    I also use multiple means of communication to ensure open 
dialogue access at all levels of the workforce. I encourage the 
use of the Director's email box, personally engage with both 
the Federal Air Marshal Advisory Council and the Supervisory 
Air Marshal Advisory Council. I utilize an ombudsman and 
aggressively communicate the availability of support and 
assistance programs that are available to all employees.
    Since the vast majority of our employees are dedicated 
professionals who conduct themselves in an exemplary manner 
each and every day, I have initiated a number of programs to 
recognize, award, and thank them. This outreach has provided me 
the opportunity to highlight and express my appreciation for 
the outstanding work that is being accomplished by so many.
    During initial training, all Federal Air Marshals are 
provided multiple courses regarding integrity, accountability, 
and professionalism. We have expanded our in-service training 
to a variety of topics, including resiliency, critical incident 
response, and, most recently, completed mandatory alcohol 
awareness training.
    All TSA employees are subject to recurrent annual vetting 
and on an annual basis certify that they understand and will 
abide by TSA's employee responsibilities and code of conduct. 
Additionally, FAMS are subject to security clearance 
determinations and appointments to national security critical 
sensitive positions following strict adherence to the federally 
established adjudication guidelines.
    Nonetheless, these proactive efforts won't prevent all 
misconduct. There are a handful of employees who may betray the 
trust bestowed upon them. In these cases, both headquarters and 
field leaders must and will act appropriately, quickly, and 
decisively.
    During my visits, I have stressed to supervisors their 
responsibility to lead. They are expected to mentor 
subordinates and to manage minor issues at the local level. I 
have empowered them to lead by example and to foster a law 
enforcement environment that promotes integrity and 
accountability. I believe a strong leadership reduces the 
likelihood of misconduct and performance issues.
    We continue to provide our workforce with the resources and 
specialized support required to carry out the mission. As such, 
FAMS maintains a number of medical programs, to include a 
comprehensive annual physical, health and fitness program, and 
employee assistance resources. The FAMS medical section is 
staffed with a physician and other full-time medical 
professionals who are available to FAMS personnel at any time.
    FAMS recognizes the value of these programs, as our mission 
is demanding both physically and mentally. We will continue to 
make these and other employee assistance programs available to 
our personnel.
    The Federal Air Marshal Service is a strong 
counterterrorism element in the security TSA provides to the 
traveling public. We take our mission seriously, and our 
workforce is dedicated to preventing and disrupting both 
criminal and terrorist acts aboard aircraft within the 
transportation domain.
    Our workforce is comprised of exceptional men and women who 
execute a difficult mission. I am deeply honored to lead this 
team of counterterrorism professionals, and our Nation should 
be proud of the work they do each and every day to support the 
goal of securing our transportation systems.
    I appreciate this committee's interest in our mission as we 
execute our sworn duties, which are vital to the security of 
the traveling public. Thank you for the opportunity to appear 
before you today, and I look forward to answering your 
questions.
    [Prepared statement of Mr. Allison follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Chaffetz. Ms. Book, you are now recognized.

                   STATEMENT OF HEATHER BOOK

    Ms. Book. Thank you.
    Good afternoon, Chairman Chaffetz, Ranking Member Cummings, 
and distinguished members of the committee. Thank you for the 
opportunity to testify today.
    Our highest priority at TSA is accomplishing the important 
mission to protect the Nation's transportation systems and to 
ensure freedom of movement for legitimate travel and commerce. 
Our new Administrator, Mr. Peter Neffenger, has committed to 
ensuring that we continue to pursue our vision of an effective, 
high-performing counterterrorism organization. We are a 
security organization, and every member of our team must be 
focused on this core mission.
    Most importantly, our new Administrator has committed to 
leading with values that define our agency--integrity, 
innovation, and team spirit--and he has asked each of our 
employees to do so, as well.
    Every day, TSA's 57,000 employees serve to ensure the 
security of our Nation's transportation networks, interacting 
with the traveling public millions of times each day. We screen 
passengers and baggage at nearly 450 airports across the United 
States. We deploy Federal Air Marshals on U.S. Aircraft 
worldwide to ensure the safe conduct of flights on high-risk 
routes and to cover special mission needs. We vet 14 million 
passenger reservations and 13 million transportation workers 
against the terrorist watchlist every week.
    The totality of our efforts facilitate safe, secure air 
travel for 1.8 million people per day. In doing so, the vast, 
overwhelming majority of our workforce serves with honor and 
integrity.
    Our success depends upon the dedication and professionalism 
of our workforce. Public service is a public trust, demanding 
adherence to the highest ethical and personal standards of 
conduct. Because TSA employees interact directly with the 
public and hold sensitive security positions, their conduct is 
held to the strictest standards. When a TSA employee fails to 
live up to those standards, he or she violates that trust and 
undermines the honorable work that others do keeping the 
traveling public safe.
    For all these reasons, we have no tolerance for misconduct 
or criminal activity in the workplace. When allegations or 
incidents of misconduct arise, they are investigated by the DHS 
Office of Inspector General or by TSA's Office of Inspection, 
an independent office that reports directly to the TSA 
Administrator and Deputy Administrator.
    Office of Inspection reviews allegations and reports them 
to DHS Office of Inspector General. When OIG elects not to 
handle the case, Office of Inspection conducts the 
investigation.
    The Office of Inspection also conducts independent 
oversight inspections of operational programs, procedures, and 
policies. These inspections assess compliance and afford 
employees an opportunity to discuss allegations of misconduct 
in a confidential setting.
    To promote consistency, timeliness, and accountability in 
the disciplinary process, TSA created the Office of 
Professional Responsibility, or OPR, the office that I lead. 
OPR adjudicates all allegations of misconduct involving senior-
level employees and law enforcement personnel, including the 
Federal Air Marshals. OPR officials also review all reports of 
investigation from the OIG regardless of the pay grade or 
seniority of the employee.
    OPR has promoted greater transparency and consistency in 
the entire TSA disciplinary system by creating a table of 
offenses and penalties. The table provides ranges of penalties 
for each type of offense and guides the decisions of officials 
both at OPR and in the field.
    The Office of Professional Responsibility has a trained 
staff dedicated to adjudicating disciplinary matters involving 
senior-level employees and law enforcement personnel, including 
the Federal Air Marshals.
    OPR affords employees due process and holds them 
accountable to TSA's high standard of conduct. Having a 
dedicated staff of adjudicators who serve as independent 
proposing and deciding officials has reduced the time between 
the issuance of the resolution proposal notice and the decision 
letter.
    Through use of the dedicated staff and the table of 
offenses and penalties, OPR has taken strong actions and has 
maintained a consistent approach to accountability.
    OPR has partnered with the Office of Law Enforcement/
Federal Air Marshal Service to educate the workforce in the 
field regarding disciplinary process and the table of offenses 
and penalties. The goal of our joint outreach efforts is to 
motivate positive behavior and to deter or prevent misconduct 
by providing notice of the possible penalty and consequence.
    Additionally, OPR has supported Director Allison's alcohol 
awareness initiative by amending policy to require Federal Air 
Marshals to abstain from consuming or being under the influence 
of alcohol for a minimum of 10 hours before mission report 
time. For the offense of driving a privately owned vehicle off 
duty while intoxicated, the table of offenses and penalty 
requires a 30-day suspension for law enforcement employees.
    Because TSA, through my Office of Professional 
Responsibility, has taken an aggressive approach in drafting 
solid proposals and decision letters in disciplinary matters, 
and through the support of the Office of Chief Council, OPR has 
had strong cases in the event of litigation.
    Ethics and integrity are at the core of who we are as a 
counterterrorism agency. It is up to all of us to always show 
the highest level of professionalism and perform our work with 
honor and pride.
    As we strive to continue strengthening transportation 
security and improving the overall travel experience for all 
Americans, we always bear in mind that the success of our 
mission depends on the conduct of our people. The freedom to 
travel is fundamental to our American way of life, and TSA is 
fully committed to ensuring that the public can do so securely.
    Thank you for the opportunity to appear before you today. I 
am pleased to address any questions that you may have.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Florida, the 
subcommittee chairman for transportation but also the former 
chairman of the full Transportation Committee in the House of 
Representatives, Mr. Mica, for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman, for calling this 
important hearing reviewing some of the performance of the 
Federal Air Marshal Service.
    Unfortunately, the FAMS, Federal Air Marshal Service, has 
had a recent history of a whole host of misconduct on a whole 
host of occasions. We have had the gun purchase scandal, the 
air marshal scheduling scandal, and allegations of cronyism and 
discrimination issues, air marshals dependent on drug and 
alcohol.
    And you were brought in, Mr. Director Allison, when? Last 
year?
    Mr. Allison. Yes, sir. June 2014.
    Mr. Mica. --to kind of clean things up.
    And I think the chairman has been pretty complimentary on 
some of your efforts in trying to put some of that behind us, 
institute some corrective measures, and also hold people 
accountable. And part of this hearing was also to highlight 
your successes.
    Unfortunately, the allegations and the problems still 
continue. As recently as, I am told, September 3, you informed 
the committee of an ongoing investigation--this is a new one--
into solicitation of prostitutes. Is that correct?
    Mr. Allison. Yes, sir.
    Mr. Mica. And that is an ongoing investigation, correct?
    Mr. Allison. Yes, sir.
    Mr. Mica. In March, TSA began investigating a workers' 
compensation fraud case in the Chicago FAMS office. Allegedly, 
an air marshal claimed that he hurt his shoulder; however, I 
guess there are some videos and some other evidence disputing 
his claim.
    So we have that case pending, too. Is that investigation 
underway or continuing?
    Mr. Allison. Yes, sir, that is an active investigation.
    Mr. Mica. Well, when we set up all the security measures 
after 9/11, we tried to have a layered system. We, first, 
dramatically expanded the air marshals. There were only a 
handful on the eve of 9/11, and we think that is an important 
element in a layered system.
    We have gone from 16,500 screeners to some 46,000 screeners 
and almost 60,000 TSA employees. That is about right, isn't it, 
Ms. Book?
    Ms. Book. Yes.
    Mr. Mica. Yeah. Back in 2007, we had 30,000 screeners. And 
this was a leaked report; it was on CNN. And it said there is a 
75-percent failure rate in the screeners' ability to detect 
explosive devices and other devices that could do harm. Then, 
most recently, we have had--I guess USA Today had a leaked 
report about a 95-percent failure rate. These are anecdotal to 
press reports.
    Are you familiar, Mr. Allison and Ms. Book, with those 
reports?
    Mr. Allison. Yes, sir. We are all familiar with the 
reports.
    Mr. Mica. So we built a system, we have increased the 
number of personnel from 16,000 to 30,000 for screeners, then 
to 46,000 currently for screeners. It has gotten worse, rather 
than better.
    We have had a history of misconduct and problems with FAMS, 
which is a backup. Fortunately, we have thousands of airline 
pilots who have gone all the way to New Mexico, wherever they 
are trained, to arm themselves and also protect us.
    But the layered system that FAMS is so important to fill 
part of that layer unfortunately still has some serious 
problems. Is that correct, Mr. Allison?
    Mr. Allison. I prefer to look at those as challenges and 
opportunities, Mr. Congressman.
    Mr. Mica. Well, it is not an opportunity when the reports 
we get--now, it is nice that you come to us and tell us about 
it, but it looks like we still have problems.
    I haven't gotten into scheduling, and I would like you to 
provide the committee with some information that could be part 
of the record, either kept classified. I want to know about 
overseas flights and how many of those are covered. I am told 
you are not covering those overseas flights.
    Almost every instance--Richard Reid, the liquid bombers, 
the diaper bomber--all of these people trying to do us harm are 
coming in or involve international flights, and you are not 
properly scheduling folks.
    So I think that should be reported back to the committee, 
how many people you have on this and the problems that are not 
being aired publicly about our most at-risk flights and then 
our backup system with air marshals not operating the way it 
should.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    Members are advised that we have three votes on the floor. 
The voting has started. It is my intention to recognize Ms. 
Watson Coleman of New Jersey for her 5 minutes. We will then go 
into recess. After the votes, we will reconvene. That will be 
no sooner than 3 p.m. And likely a little bit after that. So, 
if members need to depart to get to the floor, I would advise 
that they do so.
    We will now recognize Ms. Watson Coleman of New Jersey for 
5 minutes and then recess from there.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. But use your 
influence with the majority so they don't close out the voting 
before I get there. Thank you for holding this hearing.
    Chairman Chaffetz. You are on your own. Good luck with that 
one.
    Mrs. Watson Coleman. Well, Mr. Allison and Ms. Book, I want 
to get to the issue of the day here, which has to do with these 
allegations and what your agency does when these allegations 
arise. So I would like to explore with you a little bit about 
the authority that the agency has when there are allegations of 
misconduct. Okay?
    First of all, do these air marshals have to have security 
clearances?
    Mr. Allison. Yes, Ms. Congressman. These positions are 
designated as national security critical sensitive positions, 
which are subject to Top Secret clearances.
    Mrs. Watson Coleman. So if there are allegations of a 
serious breach of conduct, can the agency sort of suspend a 
clearance on an individual?
    Mr. Allison. Yes. Congresswoman, the adjudication 
guidelines, of which you are referring, there are 13 criteria: 
allegiance to the United States, foreign influence, foreign 
preference, financial responsibility or irresponsibility, 
criminality, and so forth. So when these allegations occur, 
these are actually referred for investigation, first and 
foremost. And as these investigations are ongoing, if these 
investigators, who are very good, by the way--they actually 
refer these to the Office of Security.
    They can, in turn, take a look at that statement or 
activity and decide if it hinges upon one of the 13 criteria 
that I identified either on a continual basis or a one-time, 
sort of, egregious incident. From that, they will make or could 
make an unfavorable determination of whether that individual 
will have his clearance suspended or even petitioned for a 
revoke.
    These are two-step processes. If it is a suspension, the 
agency, the Federal Marshal Service, will move forward with an 
indefinite suspension without pay up until the time that this 
issue is revolved.
    Mrs. Watson Coleman. I was going to ask you about that 
issue, about without pay.
    Let me understand this. So, at the point that the 
allegation is made, what has to take place before a decision is 
made, even before the investigation is thoroughly conducted, is 
that the security clearance is suspended, that the individual 
is not working in that capacity.
    Does that happen before the investigation is completed, or 
do you have to go through the investigation in order to do 
that?
    Mr. Allison. Congresswoman, it could happen before. It 
depends upon the facts and circumstances of the case. Most of 
the times, these are admissions. Sometimes--it won't be done 
based just on an allegation; we need a little bit more than 
that. But typically they are based upon admissions or a strong 
set of facts and circumstances.
    Mrs. Watson Coleman. So the allegations that are part of 
this hearing and the reason for this hearing, do they represent 
the kinds of allegations that would cause the agency to take 
away the security clearance, put the individual's status in 
suspension, and/or also stop the pay?
    Mr. Allison. We found out about this in June, and by mid-
July these individuals were all suspended without pay.
    Mrs. Watson Coleman. Uh-huh.
    So, in your experience and with your knowledge, do you 
believe that you have all the authority that you need to deal 
with these issues as they come to your attention? Or is there 
something that is lacking that you need that would help you 
facilitate the resolution of these issues dealing with these 
infractions?
    Mr. Allison. Congresswoman, I was asked that same question 
by Ranking Member Cummings last night, and what I told him was, 
if we are waiting on discipline to be the only measure by which 
we can mold and shape a model workplace, our arms are going to 
be tired from taking off all these people's heads.
    Mrs. Watson Coleman. Yeah.
    Mr. Allison. So what I believe and the road that we have 
embarked upon is bringing to bear all the resources that we 
have within the organization--performance management, policy, 
training, enforcement, discipline is one of them, the personnel 
security aspect, and then good old-fashioned leadership.
    Mrs. Watson Coleman. Well, I have to tell you, I am very 
expressed with your testimony about your being proactive about 
your trying to create an environment of professionalism, how 
you are both thinking as well as training as well as holding 
accountable. So I thank you for answering the questions.
    I thank you for my time, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    As I said previously, we are going to go into recess. We 
appreciate your patience and understanding. The committee will 
reconvene at the conclusion of those votes, but we will say no 
sooner than 10 minutes after the top of the hour. We stand in 
recess until then.
    Chairman Chaffetz. The committee will come to order. 
Appreciate your patience as we took a recess for the votes that 
were on the floor, the swearing in of a new Member, the 
gentleman from Illinois.
    We now are pleased to recognize, as we continue with the 
hearing, Mr. Duncan from Tennessee.
    Mr. Duncan. Well, thank you, Mr. Chairman. And I don't have 
any questions, but I do want to make a few statements for the 
record.
    And let me say first of all that I almost never disagree 
with my chairman, and Ranking Member Cummings is one of the 
members here that I respect the most, but I personally think 
this Federal Air Marshal Service is probably the least or 
certainly one of the least-needed organizations in our entire 
Federal Government.
    And this is no criticism of Director Allison. He has been 
given a job, and it is his duty to do the best that he can.
    And I may have been the first or one of the first to 
question the need for this organization, but many people have 
done that in the past few years. Gram Slattery wrote in the 
Harvard Political Review, he said, ``A third and, for our 
purposes, final example would of course be the Federal Air 
Marshal Service--not the one of Hollywood's imagination, but 
the real one, which has come to be a symbol of everything 
that's wrong with the DHS: the agency in which 4,000 bored cops 
fly around the country first-class, committing more crimes than 
they stop, and waiting to be among the 0.1 percent of agents 
making one of those rare, ephemeral $200 million arrests.''
    And what he's referring to, there was a USA Today article a 
few years ago that said that there were more air marshals being 
arrested than arrests by air marshals. There were a few years 
there where they averaged four arrests a year, and this is for 
an agency that was getting over $800 million a year. And, in 
fact, in the last 10 years, they've gotten almost $9 billion 
total.
    Then there was a book written by John Mueller, a professor 
at Ohio State, along with Mark Stewart, an Australian 
statistical engineer, who wrote a book called ``Overblown: How 
Politicians and the Terrorism Industry Inflate National 
Security Threats and Why We Believe Them.'' One of the key 
findings of this book was that these two professors could not 
find any internal discussions, public reports, government 
personnel, or sources of any kind that could explain how the 
DHS could justify the spending on the Federal Air Marshal 
Service.
    And they said, because the agency so totally fails a cost-
benefit analysis, when they wrote, they said, since the FAMS 
costs $1.2 billion per year--which I guess that was how much it 
was at the time they were writing--and its effectiveness is in 
serious doubt, and they said, an alternate policy measure is to 
double the budget of the FFDO program, the Federal Flight Deck 
program, and also to increase the spending on the secondary 
security barriers, the IPSBs.
    Former Congressman Sonny Callahan I remember saying years 
ago, he said, we did everything we really needed to do when we 
secured the cockpit doors. And, of course, now we spend 
billions on the TSA.
    But these two professors recommended a 75-percent cut in 
funding for the Federal Air Marshal Service because it was so 
ineffective.
    Then former Senator Tom Coburn wrote in his last report 
that he made as a Senator, he said, ``It's unclear to what 
extent the air marshal program is reducing risk to aviation 
security, despite the more than $820 million annually that is 
spent on the program.'' In addition, he wondered if other 
enhanced security screening and safety precautions undertaken 
by the TSA and the airlines themselves have made--he said 
they've made the Air Marshal Service irrelevant.
    It seems to me--of course, every Member of Congress flies 
here usually about twice a week. And that is what these air 
marshals do; they fly back and forth, back and forth, back and 
forth. It has to be one of the softest, easiest jobs in the 
Federal Government but, I think, one of the least necessary.
    And so I just wanted to put those comments on record, Mr. 
Chairman, because I think this money--there are so many better 
things that this money could be and should be being spent on.
    Thank you very much.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentlewoman from Illinois, Ms. 
Duckworth, for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Director Allison, I was troubled by your written testimony 
because it did little to address ongoing investigations of 
allegations of workers' comp fraud and sexual misconduct by the 
air marshals. I think that this behavior undermines your 
mission and the Americans that the agency serves.
    I am especially disappointed that the scandal involves air 
marshals from your Chicago office, which is, of course, near 
one of the world's busiest airports, Chicago O'Hare. My 
constituents expect and deserve to be served by a dedicated 
corps of Federal Air Marshals who are 100-percent committed to 
safeguarding flights in and out of Chicago.
    And, as other members have rightly noted, these allegations 
are highly disturbing because they involve Federal law 
enforcement officers. And Congress entrusts these men and women 
with a badge, a gun, a solemn oath to protect our constituents 
from terrorist acts.
    And if the allegations of this egregious behavior and 
misconduct are proven true, I strongly believe that the three 
Chicago air marshals must be held fully accountable. And I know 
that you are well on your way to doing so, and one of which 
have retired.
    But my concerns extend beyond this particular incident. My 
fundamental questions about the potential weaknesses is in how 
the Air Marshal Service recruits, vets, and hires new 
applicants into the job.
    This scandal that was disclosed last night comes on the 
heels of another alleged incident of gross misconduct involving 
your employees earlier this year, and it is simply 
unacceptable. And now that there are two incidents, I want to 
make sure that, you know, these are highly unusual, isolated 
incidents and not a weakness in the recruiting program.
    However, this committee can't replace facts with hope. We 
have an oversight responsibility to examine whether these 
scandals are symptoms of a deeper, more comprehensive problem 
that threatens to undermine the Service's effectiveness in 
recruiting, evaluating, and hiring potential air marshals.
    So, Director Allison, can you briefly describe how Federal 
Air Marshal Service's recruiting, vetting, and hiring system 
allowed individuals who are suspected of engaging in incredibly 
inappropriate misconduct to become Federal Air Marshals in the 
first place? And include in your answer details on the type of 
after-action review your team conducted to make such a 
determination.
    Mr. Allison. Congresswoman, first of all, let me just state 
my opinion about the activity that we're talking about here 
today.
    For law enforcement officers to engage in this conduct that 
really contributes to the scourge of human trafficking is 
reprehensible. These individuals are a disgrace to the 
profession; they are a disgrace to our organization. I came 
from a place in the military where you never embarrass yourself 
or the organization. And this committee has my commitment that 
I'm going to take a personal interest in making sure these 
people are shown the door.
    To your question about hiring, the vast majority of the air 
marshals were hired in a standup right after 9/11. Since then, 
we've had a couple of other hiring opportunities. I believe one 
might have been in 2007 or 2008, and, subsequent, there was one 
in 2011. That was the last time we've hired.
    The good news is we're a learning organization. We've 
gotten better, and our last hiring effort, we actually infused 
much more scrutiny upon the folks.
    So I'm not here to say that--I'm not blaming it on 9/11, 
the standup. That was a challenging time for a lot of people. 
But, as we move forward and if I get the opportunity to hire, 
to your point, we're going to put polygraphs in place, which we 
weren't doing before. They were all vetted and everybody had a 
background check, but background checks are snapshots in time. 
They don't predict future behavior.
    So I don't know if I can say unequivocally we didn't do a 
good job of hiring. I think we can do a better job of hiring, 
to your point.
    Ms. Duckworth. Will you be doing any type of a formal 
analysis of the hiring process, perhaps conducting an 
independent review within your organization or perhaps turning 
to DHS and asking their IG office to do a review for you, so 
that you get a truly independent look at it?
    Mr. Allison. I'm certainly willing to ask the IG. But just 
let me share with you, in the President's budget for this year, 
we had made a request, but, in that process, we actually worked 
internally with our Office of Human Capital, our Office of 
Civil Rights and Liberties, we had a team of people looking at, 
okay, if we get a chance to hire, what is this going to look 
like, how are we going to manage this, and what's the best way 
to move forward. Because we want quality applicants. I would 
rather not have to deal with bad employees. So I share your 
concern.
    Ms. Duckworth. I am out of time. I yield back, Mr. 
Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize myself for 5 minutes.
    I want to talk specifically about those that were based in 
Chicago. This all started because what happened?
    Mr. Allison. Well, Mr. Chairman, as I explained to you last 
night, I cannot give any details on that investigation.
    Chairman Chaffetz. So there was a suggestion that there was 
some fraud involved in a disability claim, correct?
    Mr. Allison. Mr.----
    Chairman Chaffetz. Go ahead and leave your mic on, because 
I am going to keep asking here.
    Mr. Allison. There was an investigation, and in the 
conducting of that investigation they found activity that led 
to what we're here talking about today.
    Chairman Chaffetz. And----
    Mr. Allison. And which is still ongoing, by the way.
    Chairman Chaffetz. What leads you to believe it is ongoing? 
There was a disability fraud allegation. Is that going to be 
prosecuted?
    Mr. Allison. I do know that that was referred to the U.S. 
Attorneys Office and----
    Chairman Chaffetz. And what did they tell you?
    Mr. Allison. They told me I should contact the U.S. 
Attorneys Office.
    Chairman Chaffetz. And did they tell you they are going to 
prosecute it?
    Mr. Allison. I did not--I did not get that, Mr. Chairman. 
What I got was for details relating to----
    Chairman Chaffetz. This is the concern, is that they are 
actually not going to prosecute it.
    What is the disposition of the other people?
    Mr. Allison. Everybody involved in this----
    Chairman Chaffetz. How many people?
    Mr. Allison. Well, there were three.
    Chairman Chaffetz. The other two people, what has happened 
to the other two?
    Mr. Allison. All of the individuals involved were put on 
indefinite suspension without pay, and one individual has 
resigned.
    Chairman Chaffetz. When you put them on indefinite 
suspension without pay, which I think is probably due course to 
doing that, what was the time from when you heard about it to 
when you actually were able to do that, put them on suspension?
    Mr. Allison. We were notified sometime around the second or 
third week of June, and by the middle of July, I believe, they 
were on indefinite suspension.
    Chairman Chaffetz. What was the highest rank of the person 
implicated?
    Mr. Allison. Most of our line employees are--we have a 
different pay system, but equivalent to the GS system, more or 
less--the 13 level. They weren't supervisors, to your----
    Chairman Chaffetz. They were not supervisors.
    Did any of these three individuals have misconduct in their 
past record, or disciplinary action?
    Mr. Allison. Mr. Chairman, I'm not aware--if it was, it was 
minor.
    Chairman Chaffetz. Do you think these individuals believe 
their behavior is condoned? I am not asking if it was condoned 
by you. I am asking if these individuals believed their 
supervisors would look the other way. Did they believe their 
supervisors engaged in similar type of behavior or that the 
media wasn't involved and so, therefore, it wouldn't be an 
issue?
    Mr. Allison. I do not know, Mr. Chairman. But I can just 
tell you that the majority of our people, when they hear about 
these things, they're sickened. So, for them to, as you stated, 
assume that it was okay, I think it's a case where they must've 
thought it was okay and they must've felt they weren't going to 
get caught.
    Chairman Chaffetz. Were any of these--these were three men, 
correct?
    Mr. Allison. Yes, sir.
    Chairman Chaffetz. Were they involved and engaged in sexual 
misconduct with anybody that was underage?
    Mr. Allison. I'm not aware of that, Mr. Chairman.
    Chairman Chaffetz. Were any of these women these men 
engaged with in sexual misconduct, were any of them foreign 
nationals?
    Mr. Allison. I'm not aware of that, Mr. Chairman.
    Chairman Chaffetz. Has there been any contact made with the 
intelligence community to determine if any of these contacts 
resulted in a breach of security?
    Mr. Allison. Well, one, I'm not sure there was anybody that 
was a foreign individual, but--so, no, we haven't contacted the 
intelligence----
    Chairman Chaffetz. And this was not an isolated incident, 
was it?
    Mr. Allison. Meaning, sir?
    Chairman Chaffetz. That it didn't just happen once.
    Mr. Allison. I'm not aware of the frequency.
    Chairman Chaffetz. But it was more than once.
    Mr. Allison. I suspect you're right.
    Chairman Chaffetz. We have talked about prevalence of 
potential alcohol abuse in FAMS. How would you assess the 
situation, and what specifically are you doing about it?
    Mr. Allison. So, Mr. Chairman, the suggestion that there is 
alcohol abuse, I'm not aware of that.
    I will tell you that, my 23 months that I spent in the 
Office of Inspection before I became the FAMS Director--and, by 
the way, I had no idea I was coming to be a FAMS Director--it 
didn't take a rocket scientist to figure out that Mr. Booze was 
an enabling factor with a lot of off-duty misconduct--domestic 
violence issues, DUIs.
    So, upon taking the position, the first thing I did was 
order the orchestration of an alcohol awareness program, which 
was really founded on two individuals who poured their heart 
and souls out on this video and talked about how alcohol ruined 
their lives. They almost died. And so the point of that was to 
say to the workforce, ``If you have a problem, come forth. 
We're going to help you.''
    So I'm on there talking about the mission, our reputation 
as an organization. The Federal Air Marshals are talking about 
what alcohol did to them, the fact that they're still 
productive members of the organization. We have the medical 
people talking about the assistance that's available to them. 
And, also, the personnel security chief talks about what can 
happen these things--if it's not managed appropriately.
    So I ordered that to be completed. The product exceeded my 
expectations, a tribute to my staff. Everybody in the 
organization had received that training by May of this year.
    Chairman Chaffetz. And as I yield back my time, I guess 
this is one of the things that impresses me about you 
specifically, about this organization, the management you 
provided, is taking a proactive stance and taking proactive 
measures to deal with something that was obviously an issue. It 
is not simply unique to FAMS; it is an issue that a lot of law 
enforcement deal with. And I think it was very appropriate that 
you did that, and I appreciate you doing that.
    My time has exceeded. I will yield back and now recognize 
Mrs. Lawrence for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    Director Allison and Ms. Book, thank you for being here 
today. I appreciate you being here.
    The alleged misconduct of Federal Air Marshals that have 
been reported in the media, if it is true, is outrageous and 
unacceptable.
    I understand that discussing specifics of these allegations 
could jeopardize ongoing investigations, and we don't want that 
to happen. But without going into specific investigations, we 
do have an opportunity--and I really appreciate what I just 
heard you say, Director Allison--we have the opportunity to 
discuss positive policy changes that agencies can implement to 
ensure that serious misconduct is dealt with quickly and 
fairly.
    So my question to you today, in addition to the EPA and 
IG--the IG, they were able to identify employee misconduct 
cases involving pornography for expedited processing. EPA 
reports that this new procedure is already working. They have 
taken prompt administrative action in two misconduct cases 
since initiating ongoing communications with the Office of 
Inspector General.
    Director Allison, can you let me know, is there a similar 
process for the Federal Air Marshal Service in which 
investigators, management, and leadership communicate, with the 
goal of streamlining--streamlining--the disciplinary process?
    Mr. Allison. Sure, Congresswoman. So the good news is we've 
been doing that probably for about 4 years.
    And we're a little bit different--and I saw the memo that 
was provided to me last night by the staff--we're a little bit 
different organized than EPA. So we do have a DHS IG, but, 
within TSA, we do have an Office of Inspection where there are 
criminal investigators that do investigations.
    And so, similarly to what you described is, when these 
investigations are occurring, if the facts and circumstances 
present themselves and gives us an opportunity to take an 
administrative action, we will do that.
    Now, all cases are different. You know, sometimes the U.S. 
Attorneys Office is involved and you can't share the 
information. But, to your point, we look for opportunities when 
we can, where we can.
    Mrs. Lawrence. Well, I want to thank you.
    But I just want to say that the bad apples in any 
organization tend to get all the media. We recognize that. But 
we don't want to overlook the way that agencies are 
streamlining their disciplinary processes without sacrificing 
the due process rights of Federal employees.
    I do want to say that your leadership, your responsibility 
of stepping up and addressing this issue--and I understand 
there are some things you can't speak on--but, being a Member 
of Congress and expecting our Federal agencies to conduct 
themselves at a level that would be respective of the 
taxpayers' investment in their jobs and our expectations of 
their performance, I expect leadership.
    I appreciate the fact that you did meet with the chairman 
and our ranking member. I appreciate that. And I will stay in 
tune to what happens next.
    Mr. Allison. Thank you, Congresswoman.
    Mr. Cummings. Would the gentlelady yield? Thank you very 
much.
    Just one question. When you met with the chairman and yours 
truly last night, I wanted, you know, the committee to have the 
benefit of an answer to a question I asked you.
    The chairman and I have concluded that the Secret Service 
over the years had developed a certain culture. Some might call 
it complacency; some, mediocrity. I do believe it has gotten 
better, and a lot of it has gotten better because of the things 
that we have done.
    But I want you to talk about, do you believe that you have 
a culture problem? Because if there is a culture problem, I 
mean, you have to dig deep and really, kind of, almost 
reconstruct sometimes. But do you see that, or do you just see 
these as more like aberrations?
    Mr. Allison. So, Mr. Ranking Member, what I see is, having 
the benefit of been into every field office--now, granted, 
there are some limitations, because if I go to an office today, 
New York, for example, there may be 75 Federal Air Marshals; if 
I stay the night, I'll see a different 75. So I can't get to 
everybody. But my experience of going out to the field, talking 
to the Federal Air Marshals, having candid conversations, I am 
truly impressed by the men and women that work for us.
    They believe in what they do. As we sit here today, we're a 
week removed from the ceremonies that took place in the country 
about 9/11. A lot of people remember 9/11 one day a year; we 
remember it every day of the year. And the men and women really 
value their responsibility in this organization.
    But I have to candidly admit to you that we have some 
people who just feel like the rules don't apply to them and 
they don't have to abide by the rules. As I said jokingly last 
night--and I said I wouldn't say this today, but I'm going to--
they don't wear T-shirts and they don't confess. You've got to 
find them.
    So if I tell people what the expectations are and they nod 
their head, there's nothing else to talk about, right? It's 
time to find another job. And most of the people in this 
organization, they respect that. And they're looking for us, as 
leaders, to do something about this. They don't like being 
splashed all over the news every other month.
    So do I think we have a culture problem? No. I just think 
we have a handful of people who, again, just think no one's 
looking and they can get away with this stuff.
    I mean, you heard my remarks about, you know, soliciting 
prostitutes, which, again, you know, contributes to the 
scourge, as I said, of human trafficking. How can a law 
enforcement who really cares about this mission, this 
department, this organization, engage in that activity? It just 
baffles the mind. So, you know, it's time for them to find 
another job, and I'm going to help them do that.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    And thanks to both our witnesses for your testimony here 
today.
    Ms. Book, I would like to draw some answers from you. Just 
overall, what is the role of the Office of Professional 
Responsibility?
    Ms. Book. Thank you, sir.
    So the Office of Professional Responsibility was created to 
handle the law enforcement cases and senior leadership cases. 
And so it's a centralized office that handles all the cases of 
misconduct.
    We don't do the investigations. We have a separate office 
that handles the investigations, Office of Inspection. So they 
conduct the investigations, compile a report of investigation, 
and give it to our office.
    Then my office has proposing and deciding officials that 
will handle the adjudication of the misconduct.
    Mr. Hice. Okay. At what point do you get involved with an 
allegation?
    Ms. Book. Well, we have monthly meetings, we have the 
Office of Inspection, also OLE/FAMS, and my office, to know 
that there are ongoing investigations. So I'm aware of the 
investigation, but I'm not involved in the investigation. So 
our office isn't involved until the report of investigation is 
completed and delivered to our office.
    Mr. Hice. So what kind of jurisdiction do you have? If not 
investigations, what do you do?
    Ms. Book. So we can take disciplinary action. We can 
propose--we can do letters of reprimand, letters of counseling, 
propose suspensions, implement the suspensions, removal 
actions.
    Mr. Hice. All right. So you have a certain degree of 
latitude, then, so far as disciplinary action and that type of 
thing.
    Ms. Book. Yes, sir.
    Mr. Hice. Is there a scale to determine what kind of 
disciplinary action there is based on certain behavior?
    Ms. Book. Yes. We developed a table of offenses and 
penalties. And so the table has categories of offenses, and 
then it has ranges of penalties that are used as a guide for 
the proposing officials when drafting the proposed removal 
document.
    Mr. Hice. Okay. So if there is some disciplinary action or 
corrective action that you take, does the employee have a right 
to appeal?
    Ms. Book. Yes, of course.
    So when our proposing official completes the draft of the--
say it's a proposed removal, then the letter is delivered to 
the employee with all the materials that are relied upon. Then 
the employee has 7 days to respond and, during that time, can 
request an extension if necessary to obtain counsel. And then 
they make a reply to the deciding official, who is a different 
individual, who hasn't seen the case until the same time that 
the employee received it. And so they have an opportunity to 
make a written reply and an oral reply.
    Mr. Hice. Okay. So, by the time all the written and oral 
replies, what kind of timeframe are we looking at for an appeal 
process?
    Ms. Book. It can depend. It depends on if extra time is 
needed for the employee to coordinate with their attorney. We 
want to give them that time if necessary. So it can depend. 
It's a range.
    Mr. Hice. It could take a lengthy time.
    Ms. Book. It could, but typically it does not.
    Mr. Hice. Okay. How long does it--on your side, how long 
does it take to recommend disciplinary action?
    Ms. Book. Well, once we receive the report of 
investigation, our goal is to--and we've been meeting this 
goal--is to issue the proposal or the letter of closure within 
30 days, calendar days, from receipt of the investigation.
    And then our deciding official also has a standard, too. 
That target is to issue the decision letter within 21 days 
following either the oral or the written reply, the last of 
those two.
    Mr. Hice. Okay.
    Does your disciplinary action include removal of employees? 
And if so, what is the cost? What's involved in removing 
someone?
    Ms. Book. We do have authority to remove the employee. And 
I'm not understanding the question for the cost.
    Mr. Hice. Yes, just the process, is that a big deal? Does 
it cost the agency time and money on research, investigation? 
Of course, you don't do all the investigation, but is it a big 
deal to have someone removed?
    Ms. Book. Yes, it takes a lot of work. Yes, it does. I have 
a dedicated staff to do it, so that's why we're able to do it 
more quickly. But--so I have a dedicated staff of 30 people.
    Mr. Hice. Do you feel you have the sufficient tools needed 
to proceed with adequate and sufficient disciplinary action 
when needed?
    Ms. Book. I do. Thank you.
    Mr. Hice. Okay. So you would not think from our perspective 
there is more that should be done; you have everything you need 
to deal with the issues, like what we're talking about today.
    Ms. Book. Yes. I can't think of anything else that we would 
need.
    Mr. Hice. Okay. All right. Thank you very much.
    And, Chairman, I yield back.
    Chairman Chaffetz. Thank you.
    We will now recognize Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Thank you both for being here.
    I, too, want to express my concern regarding the 
allegations reported by ABC, the channel I watch in Chicago, 
the city that I represent.
    But I also want to give you the opportunity, Director 
Allison, to talk more about the positives. You shared with the 
chairman about the program dealing with alcohol, but can you 
talk more about the townhall meetings or the thank-you campaign 
that you are doing? What are some of the good things?
    Mr. Allison. Sure.
    You know, I really get a lot of enjoyment out of the 
townhall visits. You know, you walk in the room--and when I was 
a soldier, it was a big deal when the general showed up. I 
don't think I'm important, but everybody else seems to.
    But it's imperative to have those conversations with our 
workforce, to tell them, this is where we are, this is what 
we're working on, am I looking at the right things, what say 
you, and give them an opportunity to ask questions. They range 
anywhere from, ``What's the future of the organization,'' to 
``I heard about this change, I heard about that change.'' And 
the longer it goes, inevitably it gets down to personal issues, 
but that's what I'm there for.
    So it's extremely invaluable, because out of that process 
what we've learned or what I learned was, in our effort over 
the years to really enforce policies and discipline, I think 
we--it might sound counterintuitive to what we're talking about 
today--probably went a little bit too far, to the point where 
we had a culture of writing people up. And what I mean is, you 
know, you don't want to have a place where your good people are 
walking on eggshells. And that's kind of where we are.
    So we just recently rolled that back. And working with 
Heather and Office of Human Capital and our counsel office and 
Office of Inspections, we're really delegating a lot of these 
low-level, minor issues back to the management so they can 
lead, like managers should be doing. And then Heather's shop 
can focus on the more important issues and maybe help speed up 
the timelines. So that's something that was pretty significant 
that came out of the townhall meetings.
    The thank-you campaign, I wish I could take credit for it, 
but my staff did.
    Our air marshals get involved in a lot of things. I 
remember Congressman Walker from another hearing told me about 
his wife being a trauma--trauma nurse?
    Mr. Walker. Yes.
    Mr. Allison. Our men and women are all over the place in a 
lot of airports around the world and around this country. They 
get involved in things. They help people in car accidents. You 
know, so a whole host of things like that.
    The staff combs through the daily reports that come in and 
pick out issues, and they just send a thank-you letter. And 
it's from me, and it's to say, we're aware of this incident, 
you know, thank you. And I forgot the number of letters that 
went out, but it's quite a few.
    Ms. Kelly. And can you share just some of the medical and 
psychological assistance programs that are available?
    Mr. Allison. Yes, ma'am.
    So we have to take yearly physicals, and so the medical 
staff pretty much follows up on those issues that come from the 
physicals.
    But, also, what's really impressive about the medical staff 
is there's 24/7 on-call medical support. So you can imagine, we 
go to some pretty nasty countries. And anytime, day or night, a 
Federal Air Marshal calls, there is a nurse that is available 
to them to provide advice and counsel.
    Just to give you one example, you may have heard of the 
individual that was assaulted with the needle in Nigeria. Our 
doctor was on the phone with him in Nigeria at 11 o'clock at 
night, as I was in my PJs at my desk, walking through what 
happened, trying to figure out what's the best way to manage 
that incident.
    So it's a fabulous resource. They do a tremendous job and 
are certainly an enabling factor to our success.
    Ms. Kelly. Well, I just want to thank you for your 
leadership, and I am sure things will continue to get better 
and better.
    Mr. Allison. Thank you, Congresswoman.
    Chairman Chaffetz. I thank the gentlewoman.
    We will now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And, Director Allison, with regard to the particular 
incident, I realize it is under investigation, but could you 
speak to how it was initially discovered? Internally or 
externally?
    Mr. Allison. Our Office of Inspection was running the 
initial investigation.
    Mr. Russell. And with that in view, for either one of you 
or both, how many of the most egregious incidents of misconduct 
have not been discovered by internal audits, inspections, or 
investigations?
    Mr. Allison. I'm not sure I understand your question.
    Mr. Russell. I guess I'm curious to know--you know, the 
hallmark of a professional organization is that it discovers 
its own warts and makes corrections. So how many of these most 
egregious incidents that, you know, you come to testify on have 
not been discovered by internal audits, investigations, or 
inspections?
    Ms. Book. Sir, I'll take that question.
    I can't give you a specific number; I'm not in the Office 
of Inspections. But the Office of Inspections does have a 
hotline. It's a confidential number that can be called by the 
employees, and they can report allegations of misconduct.
    Mr. Russell. Would you characterize that the vast majority 
have been discovered internally by your organizations and then 
it becomes public, or vice versa?
    Ms. Book. I couldn't speak to that. I'm sorry.
    Mr. Allison. So, in this particular instance, this was 
found by us, and then it became public.
    Mr. Russell. Yeah. And that's really kind of the point I'm 
trying to make, is that the hallmark of a professional 
organization, it discovers its own warts.
    And, you know, Mr. Chairman, with regard to one of our 
colleagues using the line of reasoning that, you know, the 
irrelevancy of the Federal Air Marshal program due to sexual 
misconduct incidents, I am mindful of the number of Members of 
Congress over the years that have committed sexual misconduct. 
One list has over 60. But no one would suggest that maybe we 
ought to eliminate Congress because of these trysts. And I 
think it's important to note that.
    It doesn't mean that we don't have problems. I think you 
have displayed some professionalism here today in how you go 
after these incidents and that we have to do them. Because of 
the secretive nature of some of the work, a lot of the good 
news stories, intercepts, the incidents of terrorism that never 
happened, will never go reported. And so I just wanted to say 
thanks.
    But there is, obviously, a lot more that can be done. Now, 
you have detailed some of those things in, for lack of a better 
term, establishing a good command climate or a good, you know, 
control of the organization. Alcohol, wine, women, and song has 
been the bane of law enforcers and soldiers for millennia.
    What other than these sensing sessions or alcohol 
intervention programs, what other than that, though, are you 
doing to directly interface somebody's moral conduct and moral 
fiber so that when you are not present and they are by 
themselves that they will do the right thing? Could you speak 
to that?
    Mr. Allison. Sure.
    As you stated, Mr. Congressman, it comes down to individual 
accountability, right? That's what it comes to. So, as leaders, 
we have the opportunity to influence people, suggest and coach 
and mentor them that they will do the right thing. And the good 
news is the majority of our people do do the right thing.
    I've had townhalls where I've had people--let me give you 
an example. I started the job on June 1, which was a Sunday. On 
Wednesday, I was in the Baltimore field office in 2014. I had a 
townhall. Probably 75 people in that room. In August, there was 
a gentleman who found himself in Des Moines, Iowa, on a DUI at 
11:30 night and tried to make his flight the next day. He was 
in that townhall, sitting right there, taking notes for his 
squad. He's got to go. And he's gone.
    And so you do your best to try to reach people, convince 
them to do the right thing. A lot of us do it because of a 
sense of duty and purpose and pride in the mission. Maybe some 
people are just here to collect a check. That's fine as long as 
they're doing the right thing. Welcome aboard. But you've got 
to do the right thing.
    Mr. Russell. Well, one thing that might be helpful, and, 
you know, with appreciation to the sensitive nature of the 
work, is the scope and scale to show incidents vice number of 
people that are doing the job.
    I'm not going to ask you to speak to those numbers here, 
but it might be very useful for us to see the scope and scale, 
that really, you know, these are either a major percentage or a 
problem, or maybe they're in isolation and they've been 
discovered internally by your organization.
    And, with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman and Ranking Member.
    Director, first, I want to join the positive comments about 
your management. It is really a relief to hear it off of, as 
the chairman said in his opening comments, some of the other 
hearings we have had and the difficulty of what would seem like 
just commonsense management leadership.
    But I wanted to, besides congratulating you and thanking 
you, talk about a specific program that you have developed--it 
is my understanding you developed--that Mr. Russell sort of 
mentioned, the alcohol awareness campaign.
    Could you just walk the committee through how--what was the 
genesis of you developing the campaign and, sort of, what the 
campaign does for prevention and intervention and then the 
testing protocol that would be able to intervene after you have 
done the prevention and intervention?
    Mr. Allison. Sure.
    So, Mr. Congressman, I was telling the chairman and the 
ranking member that, having been in Inspection, I saw where a 
lot of misconduct was associated with what I call ``Mr. 
Booze.'' And so what we wanted to do was give our employees, 
you know, an opportunity and let them know that if you have a 
problem--which is very difficult, as I have come to learn--come 
forth, and we're going to help you, recognizing that most 
people don't have a problem; they just, you know, had one too 
many.
    So the idea was to provide an avenue, an educational forum, 
and everybody had to take it. So now I know either you have a 
problem--if you don't have a problem, that means you know 
better. Right? So that is the either/or scenario that that 
created.
    A lot of positive reviews by the workforce. It's very gut-
wrenching when you hear these two gentlemen--and I hope they're 
watching today. Very courageous for them to come forth and tell 
their story. And both of them almost died. I'm happy to share 
it with anybody who would like to see it, if you so desire.
    So, after that was done, because the positions are 
designated as critical sensitive--national security critical 
sensitive positions, we are subjected to random drug and 
alcohol testing. And it's what we all know that government 
employees experience. You get called into the office on a 
particular day, and you have to submit to a urinalysis. So that 
is ongoing.
    Because of some of the activity that I saw overseas when I 
was in Inspection, we actually developed an extension of that 
program based upon our authority where we actually trained, 
equipped, and certified TSA employees with the Office of 
Inspection to just pop up on international destinations at 
random. And basically they're greeting people, but if you look 
like you're drunk or smell like you're drunk, you're going to 
get tested. So it's reasonable suspicion. Not really popular 
with the workforce, obviously. But, as I talk to people and 
explain what we're trying to do, to try to get a handle on 
these incidents, they understand it.
    So that's how we orchestrated this whole program, and 
that's how those processes work together.
    Mr. DeSaulnier. Do you think there are lessons learned, 
from your experience, that should be shared either with your 
sister agencies in the Federal Government or with public safety 
in general?
    Mr. Allison. You know, I wasn't looking for credit when we 
did it, but as I shared it with people, they do think it's a 
valuable tool. Because, at the end of the day, as government 
executives and public servants, as we're doing today, you will 
be called to ask, what are you doing about it? Right? But if we 
can help people, if one person comes forward, that's great. And 
we had a couple people come forward. But, as I've come to 
learn, it's very tough.
    Mr. DeSaulnier. I appreciate your work.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Yeah. It's a little disturbing that you have 
to go through a program to tell people they shouldn't be 
working while drunk, but I'm glad you're having success with 
your program.
    About how many air marshals do we have out there?
    Mr. Allison. Sir, I can't discuss the number of Federal Air 
Marshals in public. I'd be glad to speak to you in private and 
go into great detail.
    Mr. Grothman. Okay. And what do they do during the day? Is 
their job they're supposed to kind of be the policemen in the 
air?
    Mr. Allison. Well, pursuant to the Aviation Transportation 
Security Act that was passed back in 2002, after 9/11, we are 
responsible for detecting and deterring and defeating criminal 
acts, which means we are aviation security specialists on U.S.-
flagged air carriers.
    Mr. Grothman. So does that mean basically their job 
consists of sitting on an airplane and being the policemen?
    Mr. Allison. Their job is to be security, yes, aviation 
security.
    Mr. Grothman. Do they hang around the airports otherwise, 
or what is my job if I spend 40 hours a week as an air marshal? 
What am I doing?
    Mr. Allison. The majority of the time of the air marshals, 
they're flying. They're actually on flights.
    Mr. Grothman. Last year--and I was trying to tell from your 
budget, make a wild stab at how many people you had working 
there. I mean, I've never heard on a personal level in the 
times that I've flown or anybody else that I've ever talked to 
has flown, you know, a time when somebody was arrested on an 
airplane. I'm sure it happens.
    Last year, how many incidents in which somebody had to be 
arrested or removed from an airplane did your guys come up 
with?
    Mr. Allison. I don't know the number, but I would be 
confident telling you it wasn't that many.
    Mr. Grothman. Yeah, that's what I wondered. I wondered 
whether there were more incidents involving the air marshals or 
whether the air marshals are detecting more incidents. Could 
you give a stab at that?
    Mr. Allison. Well, my response, Mr. Congressman, would be, 
we are responsible for providing security on these flights. I'm 
not so sure the metric of an arrest is a fair metric. I got it, 
it's an easy one to say, how many arrests have you made?
    I would direct the fact that the Federal Air Marshal 
Service, in conjunction with the intelligence community, all 
those analysts, the analysts at the Terrorist Screening Center, 
everybody in Department of Homeland Security who's committed to 
securing our country and the transportation system and the fact 
that we haven't had another attempt like 9/11. We do know that 
there is an active threat against aviation to this country. 
There are a number of groups that still want to attack 
aviation.
    So I understand when someone says, ``How many arrests have 
you made?'', or, ``How many terrorists have you stopped?'' I 
can meet with you in private. I think you would be very 
surprised with some data that I would show you. But I do 
understand the question and where it comes from. But I would 
have to be honest with you, I don't think that's a fair metric.
    Mr. Grothman. Okay.
    Is it--can your guys ever have a drink in an airport?
    Mr. Allison. Drinking on duty is specifically--it's not 
allowed.
    Mr. Grothman. Okay. I mean, whether--can they ever drink in 
an airport, though?
    Mr. Allison. If you're--are you suggesting on duty?
    Mr. Grothman. No, just period. I mean--I suppose you're not 
supposed to have a drink beforehand either. I just wondered, 
you know----
    Mr. Allison. No, I mean, we have a rule that there is no 
drinking 10 hours before a flight.
    Mr. Grothman. Oh, okay.
    Mr. Allison. I'm sorry. I didn't understand your question.
    Mr. Grothman. And can you tell me--I guess everything here 
is secret--are they on all U.S., like, flagged carriers or just 
carriers that leave the United States or----
    Mr. Allison. Yes, so we have authority to fly only on U.S.-
flagged carriers. There are some 26,000 flights per day. 
Obviously, we're not on all of those flights. But we also do 
foreign and domestic flights.
    Mr. Grothman. Okay. And does that mean, if I'm flying 
United, I don't know if they do, from London to Rome, I might 
get one of your guys on there? Or does that mean it would have 
to be a flight coming or going from the United States?
    Mr. Allison. If it's a U.S. air carrier, which I don't know 
if there's one that goes from London to Rome, but if it's a 
U.S. air carrier, there could be an air marshal on the flight. 
So we do do some international-international flights, Tokyo to 
Thailand and Amsterdam, I think, and another location.
    Mr. Grothman. Okay.
    And are you ever involved in stuff other than on the 
airplane? I mean, might your guys just be hanging around the 
airport looking for stuff, or is it basically on an airplane 
type job?
    Mr. Allison. Yes, sir. We manage the VIPR program. I don't 
know if you've heard of that, the Visible Intermodal Prevention 
and Response. And so there was legislation and appropriation 
given to the Federal Air Marshal Service to provide a visible 
deterrent within the aviation and surface venues. And you may 
have seen that at Union Station on the recent holiday with the 
Secretary.
    Mr. Grothman. Okay. Thank you very much.
    I will yield the remainder of my time.
    Chairman Chaffetz. I thank the gentleman.
    We now recognize the ranking member, Mr. Cummings, for 5 
minutes.
    Mr. Cummings. Thank you very much.
    Director Allison, let me ask you this. I was listening to 
you talk about being proactive, and you also talked a little 
bit earlier about hiring and trying to make sure you hire the 
right people.
    And, in this committee, we have been dealing with the 
Secret Service. In my community, we have been dealing with 
Baltimore City Police.
    And, you know, I think, a lot of times--when I hire people, 
I look for two things: I look for smart people and people with 
passion for the mission. Got to have both. One without the 
other doesn't work. Because if they've got passion for the 
mission--if they're smart and they've got passion for the 
mission, like you said, there are certain things they're just 
not going to do. They're not going to do it. I mean, in other 
words, negative things, going against the mission. It's sort of 
like going against yourself.
    And I'm listening to you, and I was thinking, you know, I 
think people can supervise with a culture of fear or with a 
culture of inclusiveness and excellence. And it's just like--
you know, I sit on the board of the Naval Academy, and there's 
not a time that I meet with those midshipmen after our board 
meetings that I am not filled with just phenomenal admiration. 
You know why? Because they have both. They have a passion for 
the mission and this country, and they're smart. And so they 
basically sort of self-govern. I guess that's where you're 
trying to get to. People self-govern because they want to be a 
part of the elite of the elite.
    And I was just wondering--I mean, I just kind of throw 
those concepts out there. Because I think sometimes we approach 
things from the backdoor with ``gotcha, gotcha, gotcha.'' And I 
think there's a natural inclination, if you are supervising 
with a ``gotcha,'' somebody is going to try to duck and dodge 
in the process. But if everybody is being lifted up, my theory 
is the people who are not about the mission are going to fall 
off. Because you know why? The people who are about it aren't 
going to tolerate it. They're just not going to tolerate it. Or 
the person who's not about the mission is going to feel so 
uncomfortable that it's just not--they know it's not going to 
work.
    And I just wanted to--I mean, I've listened to all of what 
you've said, and I'm just wondering, how does what I just said, 
if any of it, fit into your philosophy of supervision?
    And the reason why it's so important, you know, the 
chairman is right. I mean, we have folk come in here all the 
time, and it's almost like they're--they are in supervisory 
roles, but they seem as if they don't want to admit if there is 
a problem. And if there is a problem, they don't want to take 
the appropriate action to address it, with due process of 
course.
    So I was just curious as to, you know, your feelings on 
that.
    Mr. Allison. Sure, Mr. Congressman.
    You know, leadership philosophy--I comport myself with the 
philosophy of: Mission first, people always. Right? Those 
aren't diametrically opposed.
    And you're right, I think somewhere along the way--and, 
again, I've had some tremendous opportunities working for the 
government. I attended some wonderful leadership courses, and 
we all learn and grow as we progress through the Federal 
Government and you get more and more responsibility. So you are 
right, it is a learning exercise.
    And specifically to your point, as you were talking, I 
wrote down something I had heard along the way, which is, 
``It's better to be a charismatic leader that inspires 
performance than a tyrannical one that demands it.'' And that's 
where we want to be, because that's when you're going to get 
the most bang for your buck.
    As I said to you guys last night, if we can inspire people, 
coach people, mentor people, instill the mission, we're going 
to be in a lot better place, rather than waiting and being that 
person that you described that says, you know, I gotcha. That 
does not work. We know that does not work, I know that does not 
work.
    So we need to be in a place where every person in the 
organization has pride in the organization, some degree of 
pride--a lot, a little, some degree of pride. You're not just 
here to collect a check. And, you know, once we get to that 
place, that's the place we want to be. You're exactly right.
    Mr. Cummings. Now, one of the things that--I mean, how do 
you feel about the morale in your agency overall?
    Mr. Allison. The morale in the organization?
    Mr. Cummings. Yeah, the morale.
    Mr. Allison. The only way I have to gauge that, Mr. 
Congressman, is through the surveys that come out every year, 
and they're not good.
    You know, we had one when I first took over that I headed. 
And I own it. I'm not making any excuses. I'm in charge, so 
that--you know, that was done before I got there, but I own it. 
It was very low.
    So that is challenging, you know; how do get the morale up? 
You know, in some respects, morale is an individual decision. 
We all have an opportunity to come to work every day and decide 
how we're going to feel. My morale's high. I feel good when I 
come into work. I'm energized, I'm excited.
    And I can create the environment for morale, right? I can 
do things that are fair, that are transparent. We can 
communicate with our employees. We can let them know that we 
support them.
    So that is a challenge. And, you know, the Department, as 
you're well aware, has taken on this quite feverishly over the 
couple years, so, as senior leaders, we all are working on it.
    Mr. Cummings. Yeah.
    Last question. And I'll ask you and Ms. Book. I want to be 
real clear: So you all feel that you have the tools that you 
need? You don't need anything else from us, is that right, to 
deal with discipline and things of that nature?
    Ms. Book?
    Ms. Book. Thank you. Yes, we have all the tools that we 
need to deal with the discipline.
    Mr. Cummings. All right.
    Director?
    Mr. Allison. I believe the same, as well.
    Mr. Cummings. Okay.
    Thank you very much.
    Chairman Chaffetz. We now recognize the gentleman from 
North Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Director Allison, when did you start? When was your 
official start date?
    Mr. Allison. June 1, 2014. It was a Sunday.
    Mr. Walker. Okay. All right. Okay. So you're, what, 18, 19 
months into the job?
    Mr. Allison. Something like that, sir.
    Mr. Walker. Okay.
    About how many hours a week do you work on this process? 
I've got a hunch, but I wanted to hear from you.
    Mr. Allison. Probably about 11 hours a day.
    Mr. Walker. Okay. Obviously, you do your homework because 3 
months ago you remembered our conversation from the Committee 
on Homeland Security conversation. And I appreciate you doing 
that.
    And if I can think back with you, I believe I remember we 
talked about some of the abuses of the Federal Air Marshal from 
a financial or fiscal standpoint, some of the first-class 
flying, and how are we trimming back and how are we doing. In 
those 3 or 4 months, can you just mention, have we made some 
improvements there?
    Mr. Allison. Sure. I actually went back immediately--we 
have an industry engagement organization. They're very 
aggressive. They have a lot of reach-back into the industry. 
And I proposed those series of questions to them the very next 
day, and I've actually went back to them a couple times.
    So we haven't heard anything, which is good news. But, at 
the same time, we made it very clear, if you are aware of 
abuses, if you, you know, are knowledgeable of abuses, report 
it, and we'll look into it.
    Mr. Walker. Well, it is kind of tough to acknowledge this, 
because you're not going out in groups. This is kind of on an 
honor system, which is kind of what led us to this other 
predicament and situation.
    So, as far as self-reporting, you lead and supervise and 
direct an environment that's kind of tough when you're out 
there by yourself. Is that fair?
    Mr. Allison. That is fair. But with respect to the context 
of the question that you asked, if members of the airline 
industry believe that there are abuses, they have complete 
autonomy and freedom to report those incidents to us.
    Mr. Walker. I mean, does that happen? Do they know that? I 
mean, I mean, is there some kind of protocol----
    Mr. Allison. Yes.
    Mr. Walker. --that people in the airline industry know who 
to contact when they see abuses?
    Mr. Allison. There are routine meetings between this 
industry engagement and the airlines. We actually run a liaison 
unit within the Federal Air Marshal Service that has constant 
dialogue with the airlines.
    Mr. Walker. Two more points I want to make quickly during 
my time.
    As we said months ago, we talked about the fiscal problems 
and how much we're spending. I think Chairman Duncan mentioned 
close to a billion dollars since we've launched this program. 
So you have from that--people have very good arguments as far 
as the concern about that. Now we have one that kind of hits it 
from another angle, which I'll call behavioral problems.
    You see where it makes it tough to say this program 
continues to be legitimized as far as something needed, and I'd 
like for you to maybe take a minute to respond to that.
    Mr. Allison. Sure. That's a fair observation, but I think 
an equally fair observation is to acknowledge the--every 
organization has misconduct. No organization is immune, no 
profession. You know, even the hallowed halls of which we sit 
here today has seen its share, on both sides of the aisle.
    Mr. Walker. Are you sure about that? No, I'm just kidding.
    Mr. Allison. But I think what you're asking, what the 
committee is asking is a fair question: What are you doing 
about it?
    I want--you know, the majority of the men and women behave 
themselves, and they're dedicated employees, and they do a 
great job. Now, if it got to the point where, you know, a huge 
percentage started involving themselves in this activity, I'd 
be spending more than 11 hours a day in the office. But that is 
not the case.
    Mr. Walker. Let me get to one final point, and then I'll 
yield back the balance of my time.
    Explain or, if you would, lead me through this for us, how 
often the TSA or the DHS does a comprehensive field study in 
assessing the threats. Does it vary? Is it seasonal? I mean, is 
it up and down? What are you seeing out there? And help me 
understand why that's continued to be necessary.
    Mr. Allison. So it's not by season, it's not by quarter; 
it's daily. So myself and the executive staff at TSA, we sit in 
intel meetings every morning. And the intelligence 
professionals at TSA, they're reaching back to the intelligence 
community, and they're getting that data, and, you know, 
they're providing briefings.
    And I would offer any member of this committee--and we've 
done it with other Members of Congress--to join us at that 
morning meeting.
    Mr. Walker. Ms. Book, Director Allison, I appreciate your 
being here today, even sitting through a vote.
    With that, I'll yield back to the chairman. Thank you.
    Chairman Chaffetz. Thank you.
    I'll recognize myself for the second round here. We do have 
a vote on the floor, and we will wrap up this hearing rather 
soon, but I do have a few more questions.
    Director, the three individuals from Chicago, what would 
you like to see have happen to them?
    Mr. Allison. I am confident that they will be shown the 
door. And that's what I'd like to see.
    Chairman Chaffetz. Should they be prosecuted?
    Mr. Allison. I would like to see them prosecuted, but the 
reality of the way the work is done and caseloads--and I'm not 
privy to say whether they can or not. It would be nice, but 
that's not reality, right? There's a lot of cases that don't 
get prosecuted.
    Chairman Chaffetz. And this is one of the challenges. We 
have an organization, you have a director here who's trying to 
do the right thing, weed out the bad apples, but if the 
Department of Justice doesn't get up off their seat and 
actually prosecute some of these cases, there won't be the full 
extent of the consequences that I think is important for all 
the Federal employees to see, not only to the people who are 
doing misdeeds, to get the sense of justice here that, you 
know, you better get your act in order or it may happen to you, 
but also all the good apples, to know that there are 
consequences, that we are looking out for the 90-plus percent 
of the people who do do the job right, they do work hard and 
show up on time, and they don't drink and they don't do all 
those things. But they all know what's happening, they know 
when somebody else is messing up. And when nobody's held 
accountable and there's no accountability and no justice, 
there's no justice. And it frustrates those employees.
    What is the disposition of--Ms. Book, what's the 
disposition of Robert Bray? What's going on with him? He's the 
former Director.
    Ms. Book. Yes. He is retired.
    Chairman Chaffetz. Did he get prosecuted?
    Ms. Book. No, he did not.
    Chairman Chaffetz. There's a case that's going on that 
involves somebody who was reassigning flights so they could 
meet up with other people for some sexual type of rendezvous. 
What's the disposition of that case?
    Ms. Book. That case is still under investigation.
    Chairman Chaffetz. So we have several people involved in 
that investigation. Have there been any charges levied so far?
    Ms. Book. As far as I know, it's still under investigation.
    Chairman Chaffetz. Still under investigation, still no 
charges.
    And here we have the case of three people in Chicago. The 
person who retired or resigned, however you want to term it, 
what's going to happen to that person? Any prosecutions?
    Director Allison?
    Mr. Allison. I do not know, sir.
    Chairman Chaffetz. My concern is that he's going to be 
simply allowed to retire. He'll get his full benefits, all the 
other benefits, yet he--he was entrusted with a gun on an 
airplane to protect 100-plus people on any given flight, and 
for him to just simply walk away is just not right. And you 
know what? Losing a security clearance, eh, I don't know that 
that cuts it.
    Director?
    Mr. Allison. So I don't know if he was in the organization 
long enough to receive a retirement or any benefits. Obviously, 
as Federal employees, you accumulate tenure at different 
increments and you are entitled to something. But the fact of 
the matter is, you know, anybody can leave when they want to, 
right? So if you know you're under discipline and you say, 
``I'm resigning,'' we can't stop people from resigning.
    Now, if the facts and circumstances lead one to believe 
that--or we can get a prosecution, perhaps--as we know, 
unemployed people get prosecuted all the time. But we still 
will drive forward on our personnel security process, so, as a 
minimum, this person probably won't see Federal service anymore 
and maybe not even law enforcement, because they're going to 
come back and call us.
    Chairman Chaffetz. I hope so. I hope they do the calling.
    The second person or the other person who was not involved 
and engaged in the potential disability fraud, what's the 
disposition of that person? They're still employed by the 
Federal Air Marshals?
    Mr. Allison. Well--so, the Chicago incident, all three 
individuals indefinitely suspended, one individual resigned. So 
one of the two people you're asking about is on indefinite 
suspension.
    Chairman Chaffetz. With or without pay?
    Mr. Allison. Indefinite suspension is--any type of 
suspension is without pay. A regular suspension is usually 
defined by a period of time--3 days, 7 days, 45 days, et 
cetera. Indefinite suspension has no time limit. So he will sit 
on indefinite suspension until the conclusion of this 
investigation.
    Chairman Chaffetz. And do you have discretion to make that 
decision?
    Mr. Allison. Yes, we do.
    Chairman Chaffetz. Now, this is the disconnect. And I was 
mentioning this to Ranking Member Cummings. We have had similar 
situations in other departments and agencies and some within 
Homeland Security. We've had the Administrator of the EPA--
obviously not part of Homeland Security--but we did have the 
Director of the Secret Service here, and we've had the former 
Director--she's now resigned--of--Administrator of the Drug 
Enforcement Agency, all three of which led us to believe that 
their hands were essentially tied on revoking of security 
clearances.
    I like the fact that you have discretion and you can make 
this decision and that you can move forward. Can you help me? 
Can you provide any insight? Why is it that you have that 
ability and you're exercising it, as opposed to these others, 
who say, ah, there's nothing I can do?
    Mr. Allison. Well, Mr. Chairman, I'm not sure. I can't 
speak for the Service or DEA. I can tell you unequivocally this 
is what we do. You know, we abide with strict guidance--or 
strict adherence to the personnel security guidelines, and we 
are lawfully exercising what's our authority to do.
    Chairman Chaffetz. And I think one of the major differences 
here is leadership. And I'm not saying you got it perfect, and 
I think it's important we continue to engage with you in 
oversight. But your openness and willingness to engage in that 
oversight, your proactive communication with the committee 
speaks volumes about you and your organization.
    It is imperative that we figure this out for other 
departments and agencies, because I do think there's a lack of 
leadership. It leads to a negative culture, and I think it 
leads to inaction. And that inaction festers. If you don't dig 
out the root of the problem, it becomes a bigger infection. And 
I like the fact that you're addressing this head-on. I 
encourage you to please, please continue to do that.
    And to the rest of the Federal Government, let's learn from 
these lessons. Rout out the waste, fraud, and abuse. Applaud 
and support the good men and women, the overwhelming majority 
who do it and do it the right way.
    And, with that, I will yield back.
    We will recognize the ranking member as we go.
    Mr. Cummings. Mr. Chairman, I'll be very brief.
    First of all, Director Allison and Ms. Book, I don't know 
whether you watch our hearings often?
    Mr. Allison. I've--I've watched every one of them.
    Mr. Cummings. You must have an exciting life.
    The----
    Chairman Chaffetz. That's a long flight he's on, I tell 
you.
    Mr. Cummings. But rarely are we able to jointly give these 
kind of compliments. And that's why I say that. But they're 
meant very sincerely. It's always good to have an example of 
what should be done. And I think that now that we hear about 
what you're doing, it helps us.
    And I know you--I know you want to stay in your lane. I got 
that. But you are presenting an example of the way it should be 
done. And now, you know, we're going to--I hate to tell you 
this, but we're going to hold other agencies to the same 
standard. Because when they come in, we're going to ask, why 
can't they do these things?
    But, again, thank you.
    And an interesting thing, too. When I asked did you have--
did you need any additional authority. I think what the 
difference is, other folks actually--you all take the authority 
that you have and use it. Other folks don't always do that. And 
I think that's the big difference.
    With that, I want to thank you all very much. And I want 
to--by the way, we really want to thank all of the employees of 
your agency. We appreciate what they do.
    A lot of times--you know, my mother used to, when she 
prayed, she would say, ``Thank you, Lord, for protecting me 
from my seen and unseen dangers.'' And so, when things aren't 
seen, a lot of times people don't know what your agents are 
able to avoid. They only hear about the things that go wrong, 
and then you catch somebody or something like that, but I know 
there's a lot of unseen things that they also address. And I 
want to thank all of them on behalf of a grateful Congress.
    Thank you very much, Mr. Chairman.
    Chairman Chaffetz. Well said. Thank you.
    The committee stands adjourned.
    [Whereupon, at 4:46 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
